APPENDIX A

Case: l:20-cv-22190-MGC

Document #: 26 Entered on FLSD Docket: 08/31/2020

Page 1 of 2

UNITED STATE DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 20-22190-Civ-COOKE
EDWARD SHANE WEST-EL,
Plaintiff,
vs.
ARMANDO VASQUEZ,
Assistant Vice President,
Defendant.

ORDER DISMISSING CASE WITHOUT PREJUDICE
THIS MATTER is before me on a sua sponte review of the record. Plaintiff Edward
Shane West-El filed this pro se action on May 26, 2020. On June 10, 2020, the Court
Ordered Plaintiff to execute and return an Application to Proceed in District Court Without
Prepaying Fees or Costs by June 24, 2020. ECF No. 8. On the same day, the Clerk of Court
mailed the financial form and a copy of the Court’s Order to Plaintiff. ECF No. 9. Plaintiff
was advised that failure pay the fee or submit the required application will result in dismissal
of this action. ECF No. 8. Rather than submit the filing fee or the financial form, Plaintiff
filed a notice of appeal and a variety of affidavits contesting the Court’s Order. On July 21,
2020, the United States Court of Appeals for the Eleventh Circuit dismissed Plaintiffs
appeal for want of prosecution because Plaintiff did not pay the filing fee to the district
court.
Considering the procedural history noted above and Plaintiffs failures to pay the
filing fee and comply with the Court’s Order, the Court finds dismissal of this action
without prejudice is appropriate.
Accordingly, pursuant to Federal Rule of Civil Procedure 41(b), this case is
DISMISSED without prejudice. The Clerk is directed to CLOSE this case. All pending
motions, if any are DENIED as moot.

1

f

APPENDIX B

\

ww • ( VM

CO.
2RC

FILE
DEPT.
CLOCK NUMBER
061900 MIAMIP
0000539893

1

Earnings Statement

PAGE 1 (CONT NEXT PAGE)

1153-0001
ELLER ITO STEVEDORING COMPANY LLC
1007 N. AMERICA WAY STE 501
MIAMI FL 33132

Period Beginning:
Period Ending:
Pay Date:

Taxable Marital Status: Single
Exemptions/Allowances:
Federal:
0
FL:
No State Income Tax

rate

Earnings

Overtime
Overtime
Overtime
Double Prm
Premium
Premium

41.2500
42.0000
54.0000
70.0000
34.3750
35.0000

hours
1.00 -

this period
42.00
756.00

1 .00
9.00

70.00
309.38
280.00

8.00

----riegaiai---------—

17701 NW 32ND AVE
MIAMI GARDENS FL 33056

year to date

963.00

413.75
2,050.31
'

Double Regular
Gross Pay

Deductions

EDWARD WEST

41 .25

1 .00
14.00

Statutory
Federal Income Tax
Social Security Tax
Medicare Tax
Other
lla Cope
lla National
Local Dues 1416
Pan American
Transamerica
Garnishment
Local Dues 1526
Local 1526 Strk
LOCAL 1416 STRK
Misc

Net Pay

* $1,498,63

01/16/2020
01/22/2020
01/24/2020

Net Check

5975.69

Your federal taxable wages this period are
$1,498.63

iJCfe'.SO

166.00
4,399.56

Other Benefits and
information
Union Dues

this period

total to date

115.94

510.70

All Hours
-232.66
-92.91
-21.73

627.45
272.77
63.79

266.50

1
iO
a

I.5

Important Notes
SHORTCUTS CUT LIFE SHORT, SAFETY KEEPS LIFE
MOVINGFORWARD

£t

<
c

-1.10
-9.93
-104.91
-49.40
-10.30

3.50
31.46
281.52
150.82
41.20
494.03
30.25
37.82
126.15
-1,533.62

' ' $975,69

SAFETY MESSAGE: YOUR LIFE IS OUR HIGHEST PRIORITY
Earnings Peso
1103 1 -20-2020
Overtime
1303 1 -19-2020
Overtime
1303 1 -19-2020
Premium
1306 1 -18-2020
Double Prm
1306 1 -18-2020
Overtime

C

<5

Temp Cost Number /

I

rate

hours

this period g

0.0000

14.00

756.00 5?

0.0000

1.00

41 .25

0.0000

9.00

309.38

0.0000

1.00

70.00 ff

0.0000

1.00

42.00 5

S

it

£

f”

1

APPENDIX C

*;

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.ca11.uscourts.gov

David J. Smith
Clerk of Court

July 21, 2020
Clerk - Southern District of Florida
U.S. District Court
400 N MIAMI AVE
MIAMI, FL 33128-1810
Appeal Number: 20-12237-A
Case Style: Edward West-El v. Armando Vasquez
District Court Docket No: 1:20-cv-22190-MGC
The enclosed copy of the Clerk's Entry of Dismissal for failure to prosecute in the above
referenced appeal is issued as the mandate of this court. See 11th Cir. R. 41-4.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Denise E. O'Guin, A
Phone#: (404) 335-6188
Enclosure(s)

DIS-2 Letter and Entry of Dismissal

APPENDIX D

\
?.

^

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-12237-A

EDWARD SHANE WEST-EL,
Plaintiff - Appellant,
versus
ARMANDO VASQUEZ,
Assistant Vice President,
Defendant - Appellee.

Appeal from the United States District Court
for the Southern District of Florida

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Edward Shane West-El has failed to pay the filing
and docketing fees to the district court within the time fixed by the rules., effective July 21,
2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Denise E. O'Guin, A, Deputy Clerk
FOR THE COURT - BY DIRECTION

APPENDIX E

Case: l:20-cv-22190-MGC

Document #: 6 Entered on FLSD Docket: 06/09/2020

Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 20-22190-Civ-COOKE
EDWARD SHANE WEST-EL
Plaintiff,
vs.
ARMANDO VASQUEZ,
Assistant Vice President,
Defendant.
ORDER OF INSTRUCTIONS TO PRO SE LITIGANTS
THIS MATTER is before the Court upon an independent review of the record. Pro se
litigants, like all litigants, must comply with the rules of civil procedure and the Court’s
orders. It is therefore ORDERED that the pro se Plaintiff shall comply with all Federal Rules
of Civil Procedure and Local Rules for the Southern District of Florida. The Local Rules can
be obtained from the Clerk of the Court. Failure to comply with the federal and local rules
may result in sanctions being imposed against the pro se litigant. Some of the requirements of
these rules are as follows:
1. Every pleading, motion, memorandum or other paper required and/or permitted to
be filed with the Court must be filed directly to the Clerk of the Court. No letters, pleadings,
motions or other documents may be sent directly to the District Judge or Magistrate Judge’s
chambers. Any papers improperly delivered directly to chambers will be returned and
disregarded by the Court.
2. All papers filed must include the case style, case number, and appropriate title in
the format required by the Local Rules. See Sample Form Following Local Rule 5.1. The
signature block of each pleading must also contain the pro se litigant’s name, address and
telephone number.
3. All papers filed with the Clerk of Court must also be served on the opposing
counsel, or the opposing side if the opposing side is not represented by counsel. Each filing
must include a certificate of service indicating the name and address of the attorney served.
1

APPENDIX F

* " * "Case: l:20-cv-22190-MGC

Document #: 7 Entered on FLSD Docket: 06/10/2020

Page 1 of 2

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 20-22190-Civ-COOKE
EDWARD SHANE WEST-EL
Plaintiff,
vs.
ARMANDO VASQUEZ,
Assistant Vice President,
Defendant.
ORDER OF INSTRUCTIONS TO PRO SE LITIGANTS
THIS MATTER is before the Court upon an independent review of the record. Pro se
litigants, like all litigants, must comply with the rules of civil procedure and the Court’s
orders. It is therefore ORDERED that the pro se Plaintiff shall comply with all Federal Rules
of Civil Procedure and Local Rules for the Southern District of Florida. The Local Rules can
be obtained from the Clerk of the Court. Failure to comply with the federal and local rules
may result in sanctions being imposed against the pro se litigant. Some of the requirements of
these rules are as follows:
1. Every pleading, motion, memorandum or other paper required and/or permitted to
be filed with the Court must be filed directly to the Clerk of the Court. No letters, pleadings,
motions or other documents may be sent directly to the District Judge or Magistrate Judge’s
chambers. Any papers improperly delivered directly to chambers will be returned and
disregarded by the Court.
2. All papers filed must include the case style, case number, and appropriate title in
the format required by the Local Rules. See Sample Form Following Local Rule 5.1. The
signature block of each pleading must also contain the pro se litigant’s name, address and
telephone number.
3. All papers filed with the Clerk of Court must also be served on the opposing
counsel, or the opposing side if the opposing side is not represented by counsel. Each filing
must include a certificate of service indicating the name and address of the attorney served.
1

f

APPENDIX G

- Ca§e l:20-cv-22190-MGC Document 8 Entered on FLSD Docket 06/10/2020 Page lot 2

UNITED STATE DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
Case No. 20-22190-Civ-COOKE
EDWARD SHANE WEST-EL,
Plaintiff’,
vs.
ARMANDO VASQUEZ,
Assistant Vice President,
Defendant.
/

ORDER REQUIRING FILING OF
APPLICATION TO PROCEED IN FORMA PAUPERIS
THIS MATTER is before me on a sua sponte review of the record. Plaintiff Edward
Shane West-El filed this pro se action on May 26, 2020. Without passing judgment on the
ultimate determination of the merits of Plaintiff’s claims, the Court observes that Plaintiff
has not submitted the initial filing fee of $400.00 or an Application to Proceed in District
Court Without Prepaying Fees or Costs (Form AO 240)1.
Accordingly, Plaintiff is hereby ORDERED to execute and return an Application to
Proceed in District Court Without Prepaying Fees or Costs. Plaintiff shall have until June
24, 2020, to submit the application. Petitioner is advised that failure pay the fee or submit
the required application will result in dismissal of this action.

There shall be NO

SERVICE OF PROCESS until further order of the Court.
The Clerk of Court is DIRECTED to forward the appropriate financial form to the
Plaintiff together with a copy of this Order.

i

The Court acknowledges that Plaintiff has submitted an affidavit affirming that he does
“not have, or possess, any gold or silver coins.” ECF No. 3.
1

.... Ca'sfe l:20-cv-22190-MGC Document 8 Entered on FLSD Docket 06/10/2020 Page 2 of 2

DONE and ORDERED in chambers at Miami, Florida, this 10th day of June 2020.

OAOjOJ
MARCIA G. COOKE
United States District Judge

Copies furnished to:
Edward Shane West-El, pro se

2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

July 08, 2020
Edward Shane West-El
17701 NW 3 2ND AVE
MIAMI GARDENS, FL 33056
Appeal Number: 20-12237-A
Case Style: Edward West-El v. Armando Vasquez
District Court Docket No: l:20-cv-22190-MGC
You are receiving this notice because you have not completed the below required filing(s)
pursuant to 11th Cir. Rule 26.1-1:
Certificate of Interested Persons and Corporate Disclosure Statement (CIP) pursuant to 11th Cir.
R. 26.1-l(a)
Pursuant to 11th Cir. R. 26.1-5(c), failure to comply with these Rules may result in dismissal of
the case or appeal under 11th Cir. R. 42-l(b), return of deficient documents without action, or
other sanctions on counsel, the party, or both.

Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Denise E. O'Guin, AJ so
Phone#: (404) 335-6188
Enclosure(s)
CEP Deficiency Letter

U.S. COURT OF APPEALS FOR THE ELEVENTH CIRCUIT
CERTIFICATE OF INTERESTED PERSONS
AND CORPORATE DISCLOSURE STATEMENT (CIP)
Appeal No._____________
vs. _______
11th Cir. R. 26.1-1(a) (enclosed) requires the appellant or petitioner to file a Certificate of
Interested Persons and Corporate Disclosure Statement (CIP) with this court within 14
days after the date the case or appeal is docketed in this court, and to include a CIP within
every motion, petition, brief, answer, response, and reply filed. Also, all appellees,
intervenors, respondents, and all other parties to the case or appeal must file a CIP within
28 days after the date the case or appeal is docketed in this court. You may use this
form to fulfill these requirements. In alphabetical order, with one name per line, please
list all trial judges, attorneys, persons, associations of persons, firms, partnerships, or
corporations that have an interest in the outcome of this case or appeal, including
subsidiaries, conglomerates, affiliates, parent corporations, any publicly held corporation
that owns 10% or more of the party’s stock, and other identifiable legal entities related to
a party.
(please type or print legibly) :

Rev.: 12/19

I 1th Cir. R. 26.1-1 Certificate of Interested Persons and Corporate Disclosure Statement (CIP)^
Filing Requirements.
(a) Paper or E-Filed CIPs.
(1)

Every party and amicus curiae (“filers”) must include a certificate of interested persons
and corporate disclosure statement (“CIP”) within every motion, petition, brief, answer,
response, and reply tiled.

(2)

In addition, appellants and petitioners must file a CIP within 14 days after the date the
case or appeal is docketed in this court.

(3)

Also, all appellees, intervenors, respondents, and all other parties to the case or appeal
must file a CIP within 28 days after the date the case or appeal is docketed in this court,
regardless of whether appellants and petitioners have filed a CIP. If appellants and
petitioners have already filed a CIP, appellees, intervenors, respondents, and all other
parties may file a notice either indicating that the CIP is correct and complete, or
adding any interested persons or entities omitted from the CIP.

(b) Web-based CIP. On the same day any filer represented by counsel first files its paper or
e-filed CIP, that filer must also complete the court’s web-based CIP at www.cal 1 .uscourts.gov. At
the website’, counsel for filers will log into the web-based CIP where they will enter stock (“ticker”)
symbol information for publicly traded corporations to be used by the court in electronically
checking for recusals. If there is no publicly traded corporation involved, and thus no stock ticker
symbol to enter, the filer still must complete the web-based CIP by entering “nothing to declare.”
Failure to complete the web-based CIP will delay processing of the motion, case, or appeal, and
may result in other sanctions under 11th Cir. R. 26.1-5(c).
The e-filing of a CIP by an attorney registered to use the ECF system does not relieve that
attorney of the requirement to complete and keep updated the web-based CIP. Pro se tilers (except
attorneys appearing in particular cases as pro se parties) are not required or authorized to complete
the web-based CIP.

'■

11th Cir. R. 26.1-2 CIP: Contents.
(a) General. A CIP must contain a complete list of all trial judges, attorneys, persons,
associations of persons, firms, partnerships, or corporations that have an interest in the outcome of
the particular case or appeal, including subsidiaries, conglomerates, affiliates, parent corporations,
an y publicly held corporation that owns 10% or more of the party’s stock, and other identifiable legal
entities related to a party.
In criminal and criminal-related appeals, the CIP must also disclose the identity of any victims.
In bankruptcy appeals, the CIP must also identify each debtor, the members of the creditor’s
committee, any entity which is an active participant in the proceedings, and other entities whose
stock or equity value may be substantially affected by the outcome of the proceedings.

Rev.: 12/19

92

FRAP 26.1

•

must clearly identify the person or entity that has been added, deleted, corrected, or otherwise
changed; and

•

if represented by counsel, must update the web-based CIP to reflect the amendments on the
same day the amended CIP is filed.

If an amended CIP that deletes a person or entity is filed, every other party must, within 10 days
after the filing of the amended CIP, file a notice indicating whether or not it agrees that the deletion
is proper.
11 th Cir. R. 26.1-5 Failure to Submit a CIP or Complete the Web-based CIP.
(a) The court will not act upon any papers requiring a CIP, including emergency filings, until the
CIP is filed and the web-based CIP is completed, except to prevent manifest injustice.
(b) The clerk is not authorized to submit to the court any brief, petition, answer, motion,
response, or reply that does not contain the CIP, or any of those papers in a case or appeal where the
web-based CIP has hot been completed, but may receive and retain the papers pending
supplementation of the papers with the required CIP and pending completion of the web-based CIP.
(c) The failure to comply with 11th Cir. Rules 26.1-1 through 26.1-4 may result in dismissal of
the case or appeal under 11 th Cir. R. 42- 1(b), return of deficient documents without action, or other
sanctions on counsel, the party, or both.
Cross-Reference: FRAP 5, 5.1, 21, 27, 28, 29, 35

Rev.: 12/16

94

FRAP 26.1

APPENDIX H

£((<’<' |. i D
Fom W-4 (2019)

<^tH.c.lcuWo,||w|-„.ln„.

s^d..e,„PrteF„we5s— ssps„’r“KS^»x,b

rs„j^i~ssr • ^SSSSSSSSg'

-iSsr^»“p

rx23ss&j»sr

' C°mpl.ete Foi7n W-4 so that your
employer canwithhold the correct federal
income tax from your pay. Consider

?™°unt of ^ V°u,f® having withheld
“?lp^res to y°ur projected total tax for
2019- If V°u use the calculator, youddn’t

Specific Instructions
Personal Allowances Worksheet
Complete this worksheet on page 3 first to
determine the number of withholdinq
allowances to claim.
Line G. Head of household please note.Generally, you may claim head of hmxwhnM
filing staL onyo^S retam onl S

ESte"—'
—>r*-- aS^^PTSrfo“;d
you have too much tax
qualifying individual. See Pub. 501 for

P
■
exemption from withholding. You may

withheld, you will receive a refund when vou

J018 yOU had a ri9ht {o a refund of aU
>9ncl you mightibwe a penalty.
federal income tax withheld because you
F isrs wj^ muiHpte foils or working
had no tax liability, and
SP:0U^-,r y°u have/hore than one job at
; For 2019 you expect a refund of all
y°U'f.Tr,ied fflin9 jointly and
federal incometax withheld becauatfViri
spouse is alsoworking, readjjiflf the
expect to have no tax liability
tt
infftroctions including the instrupfion/For
IfvBiTFe e^TrTC;—rCiZ-.......4__
ffe Two-EameryMultiple Job/Wortbheet
3y°U"erif^,Pl'.^P'fe^fy,ineSr2;----- 7**far^innj& T vo^3eet_
Your exemption for 201
^ / Nonwa9e «¥»«*». If yowfiave a<%oe
17,2020 See Pub 509^TayPWfifhhXUary / amount of Bbnwage incdfoe^tstoect to
and EstimataH
WHflh^d,ng /
withholding such as iorerds^ ttvSemril0

SffiCTF^F/

Indivfooals. Otherwise, you might owe
additional tax. ~jr, you can usefthe
Deductions, A ustments, and Additional
InobmeWorta set on page 3 or the
calculator awn .irs.gov/W4App to make
pre you have enough tax withheld from
,our paycheck. If you have pension or
annuity income, see Pub. 505 or use the
calculator at wvm.irs.gm/W4App to find
out if you should adjust your withholdina
onFormW-4orW-4P.
Nonresident alien. If you’re a nonresident
alien, see Notice 1392, Supplements! Form
W-4 Instructions for Nonresident Aliens
before completing this form.

General in/truefions
If you aren’t exempt follow foe rest of

t<eSE_'uS!ru ' ons to deterr™ne foe number
ot withholding allowances you should claim
for withholding for 2019 and any additional
amount of tax to have withheld. For reauiar
wages, withholding must be based on”
allowances you claimed and may not be a
flat amount or percentage of wages.
You can also use the calculator at
www.irs.gov/W4App to determine your
tax withholding more accurately. Consider

more ^formation about tiling status

child tax credit for each of your eligible
children. To quality, the child must be under
®9s 17 as of December 31, must be your
£®p^snt who lives with you for more than
~?!f *!•? year’and must have a valid social
security number. To learn more about this
credrt'see Pub- 972, Child Tax Credit To
reducethetaxwithheldfromyournayby
credit into account, follow the ' ' ~
!2®mjc*!°,?s on l,ne E of
worksheet. On
f? worksheet you will be asked about your
your wages and other
income, including income earned by a
spouse if you are filing a joint return.
,^e F‘Credit for other dependents,
When you file your tax return, you may be
eligible to claim a credit for other
dependents for whom a child tax credit
can * be claimed, such as a qualifying child
Who doesr,St meet the age or social
security number requirement for the child
tax credit»or a qualifying relative. To learn
more about this credit, see Pub. 972. To
reduce foe tax withheld from your pay by
taking this credit into account, follow foe
instructions on line F of the worksheet On
foe worksheet, you will be asked about
your total income. For this purpose, total

Separate here aid givs Foim W-4 to your empliqrer. Keep the worksheets) tor w racorae.
Form

W-4

Employee's Withholding Allowance Certificate

OripaumenltM Up
Internal Revenue Service
ppUrSvij

OMB No. 1545-0074

St-Wfaath

^

} Last name

.
^mpton.from-immhnldmo-jsrequired to send a copy of this form to the IBS

2 Your social security number

j

/ Home address (number 2,-id street or

9fO lllGi

A/(,V Jz

d Mamed U Married, but withhold at higher Single rate.
------------------ --------------------- - °{e: married filing separsisiy. Check ‘Married, hut withhold st higher Single rate.”
4 lfyour,as‘"a>^ differs from that shown on your social security cart.
Total number of allowances vou're rlaimin r----- ZT------------- L
^ Y°U mUSt 6811 aop-y7a-12t3 fora replacement mrH ►
City or town, stale, and ZIP cede

5
!
/

' '

'

□

5

I claim exemption from withholding2019, arid i certify thad
I6 $
Wsf the following conditions for exemption,
° Last year I had a right to arejuffo offell feral income 1
jjtmeld b« puse l had no tax liability, and
° This year I expect a refun^Tof all fed£a
income taxj^ithheldlbecause expect to have no tax liability.
If you meet both conditi s, write “Exempt” here..
______________________
.
. . .

______ /jU - cP
SS!So“sISlSESaS3nail,ii!8^tolBS«1 complete

correct, and complete.

(This form is not valid unless you sign it.) fc8

For Privacy Act and Paperwork Reduction Act Notice, see page 4.

Qates>
9 First date of
employment

Cat No. 1Q220Q

number (EIN)

nbfication

Form W-4 (2019)

APPENDIX I

' 32
c

l! j«*

6A 2 a-

7, 3^
A '■/ ,2 , <3

£
3

I

/

/;5. ^/
12V>

11,

ri

:0
0

3 oLU$

‘

t
/

322

q

\.
\

to

y\Z

, oO

M 12-

(3

) <n

22

i

<?

/3

( ~ijn) H 4f;/
. 3/26

(,r>2
2
■?

(7/^) //^f_

'i z ■s’

i

\

\

/

HOLD AT AN ANGLE TO VIEW
ADP WATERMARKS

THIS SIDE OF DOCUMENT CONTAINS ADP WATERMARKS. HOLD AT AN ANGLE TO VIEW.

n

<

-JWS

I:-’

•,j

11:00 P.M. is an 8 hour guarantee to apply to a pay scale of 6 hours overtime a 2 hours double overtime
until 8:00 A.M. Overtime rate shall apply past 8:00 A.M. Meal hours set at 3:00 A.M. to 4:00 A.M. If the
i i :00 PM start breaks at 8:00 AM on a holiday or Sunday there will be an 8 hour guarantee.

I
s

Starts with applicable guarantees and wage rates thereafter the 9:00 P.M. start and the 11:00 P.M. start time
on Master Contract Vessels are stand alone times which will stay on overtime until completion except for
Sundays and holidays.

I

5. (B) Gangs ordered for 7:00 A.M. through 3:00 P.M. starts must be ordered by 5:00 P.M. the previous
day. Gangs for 7:00 P.M. 9:00 P.M. and 11:00 P.M. starts must be ordered by 1:00 P.M. the same day.

'J

I

fe/'

In the event weather or mechanical failure after 7:00 P.M. makes it impossible for night gangs to finish a
ship scheduled to complete before 8:00 A.M., the night gangs may be released and ordered back to shipside
for a subsequent daytime start for work on that ship only and the Union is to be notified as soon as the hall
opens. Gangs ordered for 7:00 A.M. through 10:00 A.M. starts may be cancelled or modified no later than
5:00 P.M. the previous day.

i

m.

Gangs ordered for 1:00 P.M. starts may be modified no later than 7:00 A.M. Gangs ordered for 3:00 P.M.
starts may be modified or cancelled no later than 6:00 A.M. Gangs ordered for 7:00 P.M., 9:00 P.M. or
11:00 P.M. starts may be cancelled no later than 1:00 P.M., but no reduction in the number of gangs so
ordered for a particular ship may be made.

W'

5. (B) (1) Roll gang ship to ship to be able to roll from line to line when there is a vessel sharing alliance.
This is based on a two (2) ship maximum. Seaboard would have a maximum of a three (3) vessel roll.

P--.

m,f-:
it'v

5. (C) Provided full gangs remain subject to the call of their employer, labor ordered to work in gangs for
work on Sundays and Holidays shall be paid a minimum of eight (8) hours time. Gangs ordered to work at
other times shall receive four (4) hours pay in the morning and after any meal hour, shall be guaranteed
four (4) hours except small boat.

?$■

%

5. (D) Stripping and Stuffing and labor working in container trailer lots shall be guaranteed eight (8) hours
except those working against a ship.

•*r

33

4

5. (E) Gangs ordered to work for 7:00 A.M., 8:00 A.M. or 10:00 A.M. starts may be modified no later than
6:00 A.M. Gangs ordered to work 1:00 P.M. starts may be modified no later than 7:00 A.M. Gangs ordered
for 3:00 P.M. starts may be modified or cancelled no later than 6:00 A.M. when it appears that weather
conditions will prevent commencement of work as planned. Such modifications to 1:00 P.M. and 3:00
P.M. shall be a firm non-changeable order.

n
it ...

m.

Z: IS'
% I%■

It

I
I

•

5. (F) The phrase “laborers/gang ordered” as used herein is understood to apply only to new orders. It is
not considered a new order when employment is interrupted solely do to meal periods or when men are
shifted between job classifications or job locations by an employer. In the event gang/laborers are not kept
on the payroll but are released by an employer and ordered back for a subsequent starting time, it is
considered a new order.

5. (G) Excluding 9:00 P.M. and 11:00 P.M. start, any work remaining to be done at 7:00 A.M. after gangs
worked through the night from 7:00 P.M. the previous evening, shall normally be done by fresh gangs
called out to start work at 8:00 A.M. as replacements for the night gangs. However, the night gang shall
continue to work beyond 7:00 A.M. whenever:
a) Qualified fresh gangs are not available or the work remaining to be done at 7:00 A.M. is less
than four (4) hours.
b) When night gangs continue past 7:00 A.M. they shall be guaranteed four (4) hours, except on
Sundays and Holidays, they shall be guaranteed eight (8) hours starting at 8:00 A.M.

--- -

Sfv —

-as-

me l.<9woi voiu Muagmems ana uecisions

~ Supreme Court Decisions on Void Orders
A judgment may not be rendered in violation of constitutional protections. The
validity of a judgment may be affected by a failure to give the constitutionally
required due process notice and an opportunity to be heard. Earle v. McVeigh, 91
US 503, 23 L Ed 398. See also Restatements, Judgments ' 4(b). Prather vLoyd, 86
Idaho 45, 382 P2d 910.
The limitations inherent in the requirements of due process and equal protection of
the law extend to judicial as well as political branches of government, so that a
judgment may not be rendered in violation of those constitutional limitations and
guarantees. Hanson v Denckla, 357 US 235, 2 L Ed 2d 1283, 78 S Ct 1228.
A void judgment is not entitled to the respect accorded a valid adjudication, but may
be entirely disregarded, or declared inoperative by any tribunal in which effect is
sought to be given to it. It is attended by none of the consequences of a valid
adjudication. It has no legal or binding force or efficacy for any purpose or at any
place. ... It is not entitled to enforcement... All proceedings founded on the void
judgment are themselves regarded as invalid. 30A Am Jur Judgments " 44, 45.
It is a fundamental doctrine of law that a party to be affected by a personal judgment
must have his day in court, and an opportunity to be heard. Renaud v. Abbott 116
US 277, 29 L Ed 629, 6 S Ct 1194.
Every person is entitled to an opportunity to be heard in a court of law upon every
question involving his rights or interests, before he is affected by any judicial
decision on the question. Earle v McVeigh, 91 US 503, 23 L Ed 398.

No Opportunity to Be Heard
A judgment of a court without hearing the party or giving him an opportunity to be
heard is not a judicial determination of his rights. Sabariego v Maverick, 124 US
261, 31 L Ed 430, 8 S Ct 461, and is not entitled to respect in any other tribunal.
"A void judgment does not create any binding obligation. Federal decisions
addressing void state court judgments include Kalb v. Feuerstein (1940) 308 US
433, 60 S Ct 343, 84 L ed 370; Ex parte Rowland (1882) 104 U.S. 604, 26 L.Ed.
861:
"A judgment which is void upon its face, and which requires only an inspection of the
judgment roll to demonstrate its wants of vitality is a dead limb upon the judicial tree,
which should be lopped off, if the power to do so exists." People v. Greene, 71 Cal.
100 [16 Pac. 197, 5 Am. St. Rep. 448]. "If a court grants relief, which under the
circumstances it hasn't any authority to grant, its judgment is to that extent void."
(1 Freeman on Judgments, 120c.) An illegal order is forever void.

